No. 19-1280
IN THE

Supreme Court of the United States
_________
IDAHO DEPARTMENT OF CORRECTION, HENRY ATENCIO, in his official capacity as
DIRECTOR; JEFF ZMUDA, in his official capacity as DEPUTY DIRECTOR; AL RAMIREZ in
his official capacity as WARDEN; and SCOTT ELIASON, M.D.,
Applicants,
v.
ADREE EDMO AKA MASON EDMO,
Respondent.
CERTIFICATE OF SERVICE
I, Lori Rifkin, hereby certify that I am a member of the Bar of this Court, and
that I have this 29th day of May 2020, caused a paper copy of the Respondent’s
letter request for extension of time to file opposition to petition for writ of certiorari
to be delivered to the Court via first-class mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
BRADY JAMES HALL
MOORE ELIA KRAFT & HALL, LLP
702 West Idaho Street, Suite 800
Boise, ID 83702
(208) 336-6900
brady@melawfirm.net
Counsel for The Idaho Department of
Correction, et al.

/s/ Lori Rifkin
Lori Rifkin

